ACUERDO DE TARJETAS DE CREDITO PARA BEYOND ONE & BEYOND PLATINUM VISA® & MASTERCARD® DE
FIRSTBANK (EL “ACUERDO”)
Tasa de Interés y Cargos por Intereses
Tasa de Porcentaje Anual (APR)
APR Introductorio del
por los primeros 15 meses posteriores a la apertura de su cuenta para
para Compras
compras realizadas dentro de los primeros 6 meses de abrir su cuenta.

0%

(“Prime
la Tasa de Interés Preferencial de los Estados Unidos (“Prime

Subsiguientemente, su APR será de la Tasa de Interés Preferencial de los Estados Unidos

Rate”) + 8.50% hasta
Rate”) + 20.75%, al abrir su cuenta basado en su capacidad de crédito.
APR para Transferencias de
Balance

APR Introductorio de 0% por los primeros 15 meses posteriores a la apertura de su cuenta, por
transferencias realizadas dentro de los primeros 6 meses de abrir su cuenta.

APR para Adelantos en Efectivo

Subsiguientemente, su APR será de la Tasa de Interés Preferencial de los Estados Unidos (“Prime
Rate”) + 8.50% hasta la Tasa de Interés Preferencial de los Estados Unidos (“Prime Rate”) + 20.75%
al abrir su cuenta basado en su capacidad de crédito.
Tasa de Interés Preferencial de los Estados Unidos (“Prime Rate”) + 15.00% hasta Tasa de Interés
Preferencial de los Estados Unidos (“Prime Rate”) + 20.75%, al abrir su cuenta basado en su capacidad
de crédito.
29.99%*

APR de Penalidad y Cuándo Aplica

Este APR podría aplicarle a su cuenta si el pago mínimo no es recibido dentro de un periodo de
sesenta (60) días desde su vencimiento.
¿Por cuánto tiempo aplica la Tasa por Penalidad?: Si su APR aumenta por esta razón, la Tasa de
Penalidad permanecerá en efecto hasta que la cuenta se ponga al día y se hayan realizado seis (6)
pagos mínimos consecutivos en o antes de su fecha de vencimiento.
Cómo Evitar el Pago de Intereses
en Compras

Cargo Mínimo por Intereses
Para Obtener Consejos del
“Consumer Financial Protection
Bureau”
Cargos
Cuota Anual
Cargos por Transacciones
-Transferencia de Balance:
-Adelantos en Efectivo:
-Cheques de conveniencia:
-Conversión de Moneda:
Cargos por Penalidad
-Pago Tardío
-Cheque Devuelto

Su fecha de pago será de por lo menos de 25 días después del cierre de cada ciclo de facturación. No le
cobraremos ningún tipo de interés sobre las compras nuevas si usted paga la totalidad de su saldo a más
tardar en la fecha de vencimiento cada mes. Los intereses de adelantos en efectivos, transferencias de
balances y cheques de conveniencia se impondrán desde la fecha que se lleve a cabo la transacción.
Si se le cobra intereses, el cargo no será menor de $1.50.
Para obtener más información sobre los factores que deben considerarse al solicitar o utilizar una
tarjeta de crédito, visite el portal electrónico del “Consumer Financial Protection Bureau” en
https://www.consumerfinance.gov/learnmore
$0
2.00% de la cantidad de cada transacción ($2.00 mínimo; $10.00 máximo)
2.00% de la cantidad de cada transacción ($2.00 mínimo; $10.00 máximo)
2.00% de la cantidad de cada transacción ($2.00 mínimo; $10.00 máximo)
1.00% de cada transacción de dólares americanos para Visa.
1.40% de cada transacción de dólares americanos para MasterCard.
Hasta $35
Hasta $15

Cómo Calculamos su Balance: Utilizamos un método llamado “balance promedio diario sin capitalización (incluyendo compras nuevas)”. Vea su Acuerdo para
más detalles.
Pérdida del APR introductorio: Podremos terminar su APR Introductorio y aplicar el APR de Penalidad si su pago mínimo no es recibido dentro de un periodo de
sesenta (60) días desde su vencimiento.
Derecho de Facturación (“Billing Rights”): Información de cómo ejercer su derecho a disputar transacciones se incluyen en el Acuerdo.

Pago Tardío: El cargo por la penalidad de un pago tardío no excederá de $25. Sin embargo, de ocurrir un segundo pago tardío dentro de un periodo de seis (6)
ciclos de facturación se aplicara el cargo máximo que se encuentra en la tabla. El cargo por la penalidad de Cheque Devuelto no excederá la cantidad del cheque
emitido.
* La Tasa Periódica diaria para el APR de Penalidad es de 0.0822%

Revise y guarde la siguiente información de su cuenta. Este documento junto a la tabla de cargos por financiamiento y cargos adicionales es el
acuerdo entre usted, el tarjetahabiente, y FirstBank. De usted tener alguna duda, favor de comunicarse con nosotros al número que se encuentra al
dorso de su tarjeta de crédito. Usted también autoriza a FirstBank a obtener y utilizar informes de agencias de crédito y cualquier otra información
sobre usted con el propósito de: (1) otorgar extensiones de crédito en su cuenta; (2) la administración, revisión o cobro de su cuenta; y (3) para
propósitos de mercadeo, incluyendo pero no limitándose a ofertas pre-aprobadas, ventas cruzadas, y para el ofrecimiento de productos o servicios
financieros o no financieros.
CUENTA: Como causa para el crédito que bajo esta cuenta rotativa conceda FirstBank (el “Banco”), usted (significa el portador principal de la
tarjeta de crédito emitida bajo este Acuerdo) se compromete a pagar al Banco el precio total de las compras y adelantos en efectivo (incluyendo
transferencias de balances de otras instituciones y cheques de conveniencia) hechos en esta cuenta, así como los CARGOS POR
FINANCIAMIENTO Y CARGOS ADICIONALES acordados bajo los términos y condiciones de este Acuerdo. Usted podrá usar la tarjeta de crédito
(la “Tarjeta”) para pagar por compras, mercancía y servicios en aquellos establecimientos donde se acepte la Tarjeta, y para obtener adelantos en
efectivo sujeto a los límites que de tiempo en tiempo fije el Banco. La tarjeta de crédito no debe ser usada en ningún país sujeto a sanciones
económicas impuestas por el gobierno de Estados Unidos, y cualquier intento de usar la tarjeta de crédito en dichos países será bloqueado. La
tarjeta de crédito no puede ser usada en conexión con apuestas por internet ni para proveer fondos a cuenta alguna establecida para facilitar las
apuestas por internet.
USUARIO AUTORIZADO: Usted será responsable por todas la transacciones hechas por la persona que usted autorice para el uso de cheques de
conveniencia, número de cuenta, u otro mecanismo de crédito para acceder a su línea de crédito, incluyendo las transacciones por las que usted no
pretendía ser responsable, inclusive si la cantidad de dichas transacciones causan que su línea de crédito exceda el límite establecido. Al usuario
autorizado podrá otorgársele acceso a información relacionada a esta cuenta si Usted lo solicita conforme a los requerimientos del Banco. Una
notificación a cualquier usuario autorizado se considerara una notificación a todos los usuarios de la tarjeta.
TRANSACCIONES: Usted puede obtener crédito en forma de compras, transferencias de balance o avances en efectivo. Para propósitos de este
Acuerdo, compras significa el uso de su número de cuenta y/o de la tarjeta de crédito para adquirir o alquilar servicios y bienes, y realizar una
transacción que no es un avance en efectivo (“Compra(s)”). Una transferencia de balance es la transferencia de fondos a otro acreedor iniciada por
el Banco a solicitud suya (“Transferencia de Balance”). Un avance en efectivo significa el uso de su línea de crédito para cualquiera de las
siguientes: acceder a un cheque que usted extienda o firme como emisor; obtener un avance en efectivo de un cajero automático; solicitar efectivo,
giros postales, cheques de viajero o transferencias electrónicas a una institución financiera o no financiera; realizar transacciones similares al uso
de efectivo (cuasi-efectivo) como la compra de divisas a instituciones no financieras así como transacciones similares en efectivo, como comprar
boletos de lotería, fichas de casino, apuestas en circuitos de carreras, o transacciones de apuestas similares; y hacer pagos a través de un tercero
proveedor de servicios (“Adelantos en Efectivo”).
LÍMITE DE CRÉDITO: Usted acuerda que el Banco, para su conveniencia, establecerá un límite de crédito y que las compras y adelantos en
efectivo que usted cargue contra la cuenta en ningún momento excederán su límite de crédito. Al recibir su Tarjeta, se le informará su límite de
crédito y éste aparecerá en cada estado de cuenta (el “Estado de Cuenta”) mensual que le enviemos. Usted acuerda que el Banco podrá cambiar
su límite de crédito de tiempo en tiempo a base de la evaluación de su capacidad crediticia y su historial de pago. De usted exceder su límite
de crédito aprobado, el Banco tendrá el derecho de cancelar la Tarjeta, y cerrar la cuenta. Cualquier cantidad en exceso del límite aprobado por el
Banco será pagadera por usted de inmediato. El pago mínimo incluirá cualquier exceso sobre su límite de crédito autorizado.
CARGOS POR INTERESES APLICABLES A PUERTO RICO E ISLAS VIRGENES DE ESTADOS UNIDOS: Los CARGOS POR FINANCIAMIENTO
se computan únicamente sobre el balance del principal. Usted pagará un CARGO POR FINANCIAMIENTO mensual sobre el balance de su cuenta
durante el período de facturación. Este CARGO POR FINANCIAMIENTO será variable y podrá cambiar para cada período de facturación. EL
CARGO POR FINANCIAMIENTO para compras, transferencias de balances de otras instituciones, adelantos en efectivos y cheques de
conveniencia se calculará sumando la Tasa Preferencial de Estados Unidos más alta (“Prime Rate”) publicada, el último día laborable del mes
previo, en la sección “Money Rates” del “The Wall Street Journal” a un margen. Esto equivale a la TASA DE PORCENTAJE ANUAL (“APR”, por
sus siglas en inglés). Para calcular la tasa periódica (la “Tasa Periódica”) diaria, se divide el APR entre 365. El CARGO POR FINANCIAMIENTO y
el APR aplicable a su cuenta dependerán de su capacidad crediticia y del “Prime Rate” vigente al momento de la aprobación de la solicitud. Para
cada período de facturación el CARGO POR FINANCIAMIENTO y el APR se determinarán utilizando el “Prime Rate” vigente al último día laborable
del mes previo que se publique. Un incremento en el “Prime Rate” podría representar un aumento en su TASA DE PORCENTAJE ANUAL y en su

pago mínimo. Cualquier variación en el CARGO POR FINANCIAMIENTO aplicará a los balances existentes y a las transacciones nuevas incluidas
dentro del período de facturación. EL CARGO POR FINANCIAMIENTO se establece multiplicando el balance diario promedio (el “Balance Diario
Promedio”) por la Tasa Periódica Diaria, por el número de días del periodo de facturación. Obtenemos este balance tomando el balance inicial de
cada día del período de facturación, restándole los pagos y créditos, y sumándole las compras, excepto compras hechas en un período de
facturación en que el balance inicial sea $0 o ese balance inicial sea pagado por completo en o antes de la fecha de pago. Luego se suman todos
los balances diarios dentro del período de facturación y se divide ese total entre el número de días comprendidos dentro del período. El resultado es
el Balance Diario Promedio. No se impondrá un CARGO POR FINANCIAMIENTO para períodos de facturación en que no exista un balance previo,
siempre y cuando la totalidad del balance de la cuenta incluyendo las compras efectuadas durante ese período, sea pagado o acreditado en su
totalidad en o antes de la fecha de pago aplicable o si el único balance adeudado corresponde a ofertas de pagos o intereses diferidos. No habrá
período de gracia para adelantos en efectivo, transferencia de balance y cheques de conveniencia. Los CARGOS POR FINANCIAMIENTO de
adelantos en efectivo, transferencia de balances y cheques de conveniencia se impondrán desde la fecha en que se realiza la transacción. Del
“Wall Street Journal” dejar de publicar el Prime Rate, seleccionaremos una tasa similar.
PAGO MENSUAL MÍNIMO: Calcularemos el pago mínimo basado en el 2% del balance o $15. Lo que sea mayor. Además su pago mínimo
mensual puede incluir cargos por financiamiento, cargos de tasas periódicas, cantidad total sobre su límite de crédito autorizado y cargos por
deudas en atraso que te hemos facturado en el estado en que se calcula tu balance mínimo.
APLICACIÓN DE PAGO: De usted efectuar el pago mínimo requerido en el Estado de Cuenta mensual, dicho pago será aplicado de la siguiente
manera: primero a los CARGOS POR FINANCIAMIENTO; y la cantidad restante será aplicada a los balances con el APR más bajo. Si usted paga
una cantidad en exceso del pago mínimo requerido, el exceso se aplicará a los balances con el APR más alto. Los pagos se acreditarán el mismo
día sí: (i) se reciben antes de las 5:00 p.m. de lunes a viernes (excepto días feriados) en la dirección que aparece en su Estado de Cuenta, (ii) se
pagan con un cheque girado contra el Banco, y (iii) se acompaña el talonario de pago. Si el pago es a través de una sucursal del Banco, se
acreditará el próximo día laborable con retroactividad a la fecha de recibo del mismo. Pagos electrónicos que el Banco reciba también serán
acreditados el próximo día laborable con retroactividad a la fecha de su recibo.
ESTADO DE CUENTA MENSUAL: El Banco le enviará mensualmente a usted un Estado de Cuenta al finalizar cada período de facturación. En
cada Estado de Cuenta se indicarán las siguientes partidas según sean aplicables: balance anterior, pagos, créditos, débitos, compras,
transferencias de balance de otras instituciones, cheques de conveniencia y adelantos de efectivo efectuados durante el período en cuestión, el
CARGO POR FINANCIAMIENTO, la TASA DE PORCENTAJE ANUAL, el total del balance nuevo, el pago mínimo y la fecha en que vencerá dicho
pago. Usted deberá notificar por escrito al Banco cualquier error en el Estado de Cuenta dentro de los sesenta (60) días siguientes a la fecha en
que el Estado de Cuenta le es enviado.
CARGOS: Las transacciones efectuadas en moneda extranjera se reflejan es su estado de cuenta en dólares americanos. El cargo por la
conversión de moneda extranjera a dólares americanos lo calculará Visa Internacional o MasterCard Internacional dependiendo su tarjeta de
crédito. Favor de referirse a la tabla de “cargos”.
DISPONIBILIDAD DE LÍNEA DE CRÉDITO: El Banco pudiese Congelar la Disponibilidad de su Línea de Crédito si su pago es revertido por
cualquier razón o si se reciben múltiples pagos dentro del mismo ciclo de facturación. El Bloqueo retrasará por un periodo de hasta 4 días la
disponibilidad en su línea de crédito por la cantidad del pago efectuado.
“INSTALLMENT PLAN”: El plan de pagos a plazos le permite determinar el período de pago para transacciones al utilizar su tarjeta de crédito. La
cantidad solicitada para el plan de pagos a plazos estará sujeta a la disponibilidad de su línea de crédito. El APR, Cargos de Intereses y Pago
Mínimo Mensual de su plan de pagos a plazos pueden variar en cada ciclo de facturación. El APR para su plan de pagos es equivalente a su APR
estándar para compras. El pago mensual mínimo de su Plan de pagos a plazos se incluirá en el pago mínimo mensual de su cuenta durante el
término del Plan de pago. Usted será responsable de pagar el total del pago mínimo mensual establecido en su estado de cuenta. Los Cargos de
Intereses se calcularán basados en el Balance Promedio Diario. Para saldar por completo su Plan de pagos a plazos, comuníquese con Servicio al
Cliente para obtener el saldo total adeudado. El Plan de pagos a plazos no está disponible para cuentas bajo la Tasa de Penalidad y no aplica
ningún período de gracia. Si no cumple con los pagos mensuales mínimos de su Plan de pagos a plazos, se aplicará la Tasa de Penalidad según se
establece en el Contrato de Tarjeta de Crédito. El monto no pagado del Plan de pagos a plazos en el pago mínimo mensual será transferido a la
sección Transferencias de balance. Si la Tasa de Penalidad aplica a su cuenta, el saldo correspondiente al Plan de pagos a plazos permanecerá
sujeto al APR estándar en compras y el plazo correspondiente del Plan de pago no cambiará. Para solicitar un Plan de pagos a plazos y recibir
información relacionada a los términos de repago, puede comunicarse con Servicio al Cliente al 787-701-2265 o al número gratuito 1-855-701-2265.

“SKIP A PAYMENT”: De tiempo en tiempo, si se cumplen los criterios pre-establecidos, le estaremos permitiendo no hacer el pago mínimo de su
tarjeta de crédito para ciertos ciclos de facturación. Si recibe esta oferta, su estado de cuenta mostrará que el Pago Mínimo requerido para ese
período es de $ 0.00, y no tendrá que hacer el pago mínimo para ese ciclo de facturación. Si decide no hacer el pago, sepa que la cuenta seguirá
acumulando Cargos por Intereses sobre el balance adeudado durante ese período. Sin embargo, usted siempre podrá hacer un pago por cualquier
cantidad. Al final del período de “Skip a Payment”, los términos del Acuerdo con respecto al Pago Mínimo requerido se reanudarán
automáticamente.
INCUMPLIMIENTO: Usted habrá incumplido este Acuerdo si deja de hacer algún pago a tiempo, si radica quiebra, o si excede su límite de crédito
sin autorización del Banco. En caso de incumplimiento, el Banco podrá reclamar el pago de la totalidad del balance adeudado. Si el Banco se ve en
la necesidad de tener que cobrarle a usted por la vía legal, usted podría además incurrir en gastos legales y honorarios de abogado, así como
cualquier otra suma autorizada por ley.
CUOTA ANUAL: Favor referirse a la sección de “Cuota Anual” en tabla de Tasas de Intereses y Cargos por Intereses incluida en este acuerdo. Las
CUOTAS ANUALES se reflejarán en su Estado de Cuenta en cada aniversario de la fecha de emisión de la primera Tarjeta solicitada.
DENEGACIÓN DE LA TARJETA: El Banco no será responsable si una compra o adelanto de efectivo en su cuenta no es autorizado por el Banco a
un tercero, aún en el caso de que usted tenga crédito disponible. El Banco puede limitar el número de compras o adelantos de efectivo
aprobados durante cualquier día. Si el Banco detecta actividad poco usual o sospechosa en su cuenta, podrá suspender temporalmente su
crédito hasta que se verifique la legitimidad de la transacción. El Banco podría aprobar compras o adelantos de efectivo que excedan su límite de
crédito sin renunciar a sus derechos bajo este Acuerdo.
TARJETA EXTRAVIADA O HURTADA: Si su Tarjeta se extraviara o fuera hurtada o si usted sospecha que alguien pudiera utilizarla sin su
autorización, usted deberá notificar inmediatamente al Banco y completar y someter aquellos formularios o informes que el Banco le requiera. En
caso de pérdida, robo o posible uso no autorizado, usted podrá ser responsable por el uso no autorizado de la Tarjeta hasta una cantidad que no
exceda de $50.00, a menos que usted haya notificado al Banco del extravío, hurto o posible uso no autorizado de la Tarjeta con antelación
a cualquier compra o adelanto, comunicándose libre de costos al (855) 701-2265 o (787) 751-2265. Servicio de Teletexto (TTY) para audioimpedidos: 787-282-4267.
Sus derechos de facturación: Mantenga este documento para su uso futuro
Este aviso le informa sobre sus derechos y nuestras responsabilidades bajo el “Fair Credit Billing Act”.
Que Puede Hacer Si Piensa Que Hay un Error En Su Estado de Cuenta
Si usted entiende que hay un error en su Estado de Cuenta, escríbanos:
FirstBank
PO Box 84025
Columbus, GA 31908-4031
En su comunicación, provéanos la siguiente información:
•
•
•

Información de su Cuenta: Su nombre y número de cuenta
Cantidad en dólares: La cantidad en dólares del alegado error.
Descripción del alegado error: Si entiende que hay un error en su factura, describa lo que entienda que es erróneo con una
explicación de por qué usted considera que existe un error.

Usted debe comunicarse con el Banco:
•
•

Dentro de los 60 días siguientes a la fecha del envió del Estado de Cuenta donde aparece el alegado error.
Al menos tres (3) días laborables antes de cualquier pago automático calendarizado, si usted desea detener el pago sobre la
cantidad que usted entiende está equivocada.

Usted debe notificarnos los alegados errores potenciales por escrito. Usted se puede comunicar por teléfono con el Banco, pero ellos no nos
requiere hacer ningún tipo de investigación por errores potenciales y usted tendría que pagar la cantidad cuestionada.

Que sucederá luego de que recibamos su carta
Una vez recibamos su carta, haremos dos cosas:
1.

Dentro de los 30 días a partir del recibo de su carta, nosotros indicaremos que la recibimos. También indicaremos si ya hemos
corregido el error.

2.

Dentro de los 90 días a partir del recibo de su carta, nosotros deberemos corregir el error o explicarle porque entendemos que su
estado de cuenta es correcto.

Mientras investigamos el alegado error, lo siguiente es cierto:
•
•

•
•

No podemos cobrarle la cantidad en cuestión, o reportarla delincuente por esa cantidad.
La cantidad cuestionada puede mantenerse en su estado de cuenta, y podemos continuar cobrando los intereses por esa cantidad.
Del Banco determinar que se cometió un error, usted no tendrá que pagar el monto en cuestión, o cualquier interés o cargo adicional
relevante a la referida cantidad.
Aun cuando usted no tiene que pagar el monto en cuestión, sí es responsable por el saldo del balance pendiente.
Podemos aplicar cualquier cantidad no pagada contra su límite de crédito.

Una vez finalicemos la investigación, una de estas dos cosas sucederán:
•
•

Si cometimos un error: Usted no tendrá que pagar la cantidad en reclamación o cualquier interés o cargo relacionado a esa cantidad.
Si entendemos que no hemos cometido ningún error: Usted tendrá que pagar la cantidad en reclamación, así como intereses y cargos
aplicables. Nosotros le enviaremos un estado de cuenta con la cantidad que usted adeuda y la fecha límite de pago. Podríamos
entonces reportarlo como moroso si no paga la cantidad que entendemos que usted adeuda.

Si usted recibe nuestra explicación y aun entiende que su estado de cuenta tiene un error, usted debe escribirnos dentro de los próximos 10 días
explicándonos que aun rehúsa hacer el pago. Si usted hace esto, nosotros no podemos reportar su cuenta morosa sin informar que usted está
cuestionando su cuenta. Nosotros deberemos informarle el nombre de cualquier organización a quien reportemos como morosa, y debemos
notificarle a esas organizaciones que la reclamación ha sido resuelta en el momento en que hayamos llegado a un acuerdo con usted.
Si no seguimos las reglas antes descritas, usted no tendrá que pagar los primeros $50 de la cantidad en reclamación aun si la cuenta esta correcta.
Sus Derechos de Insatisfacción con la Compra llevada a cabo con su Tarjeta de Crédito
De estar insatisfecho con los artículos o servicios que compró con su tarjeta de crédito, y ha hecho un intento de buena fe para corregir el problema
con el vendedor, podría tener el derecho de no pagar el monto pendiente de su compra.
Para ejercer este derecho, todo lo siguiente debe ser cierto:
1.

La compra tiene que haber sido en el estado donde usted reside, o a 100 millas de su dirección postal actual y el precio de la compra
tiene que ser mayor de $50. (Nota: Esto no es necesario si su compra se basó en un anuncio que le enviamos a usted, o si somos
dueños de la empresa que le vendió los bienes o servicios.)

2.

La compra fue realizada con su tarjeta de crédito para la compra. Las compras realizadas con adelantos en efectivo de un cajero
automático o con un cheque que acceden su cuenta de crédito no les aplica este derecho.

3.

Usted no debe haber pagado todavía la totalidad de la compra.

Si se cumplen todos los criterios antes mencionados y usted aún no está satisfecho con la compra, comuníquese con nosotros por escrito a:
FirstBank
PO Box 84025
Columbus, GA 31908-4031

Mientras investigamos, aplicarán las mismas reglas a la cantidad en disputa, según descritas arriba. Al concluir la investigación, le informaremos
nuestra decisión. En ese momento, si entendemos usted adeuda una cantidad y usted no ha pagado podremos reportar su cuenta como morosa.
ENMIENDAS: Usted acuerda que el Banco podrá cambiar las tasas de interés, los CARGOS POR FINANCIAMIENTO y otros cargos y términos de
este Acuerdo, siempre y cuando el Banco le notifique de dichos cambios conforme de dichos cambios conforme las leyes y reglamentos aplicables.
Si usted no estuviera de acuerdo con las enmiendas notificadas y deseara dar por terminado este Acuerdo, deberá notificar por escrito al Banco de
su decisión dentro del término de quince (15) días de la fecha en que se le envíe la notificación de enmienda y seguirá pagando los balances
adeudados conforme a los términos y condiciones vigentes al momento de la notificación de enmienda.
CANCELACIÓN: Usted puede cancelar este Acuerdo en cualquier momento mediante notificación al Banco por escrito a esos efectos y la
devolución de su Tarjeta partida en dos. La Tarjeta es propiedad del Banco, quien se reserva el derecho de cancelar o revocar su derecho a usarla
en cualquier momento, con o sin causa, y sin previa notificación. El Banco podría emitirle una Tarjeta distinta en cualquier momento. Usted
continuará siendo responsable por el pago de cualquier balance adeudado al momento de la cancelación.
DISPOSICIONES MISCELÁNEAS: La omisión por parte del Banco de ejercer cualquier derecho bajo este Acuerdo no constituirá una renuncia a
dicho derecho. Si alguna cláusula o parte de una cláusula de este Acuerdo fuera declarada nula por un tribunal o dejase de tener efecto por
disposición legal o reglamentaria, las disposiciones restantes de este Acuerdo no se afectarán y continuarán en vigor. Usted entiende y está de
acuerdo que estas Tarjetas no podrán ser utilizadas para fines corporativos de empresa. El Banco, se reserva el derecho de convertir su cuenta a
cualquier otro tipo de cuenta rotativa del Banco en cualquier momento, siempre y cuando usted cumpla con los criterios crediticios establecidos por
el Banco para la nueva cuenta. Usted no está obligado a aceptar la nueva cuenta, ni será responsable de cargo alguno a menos que usted elija
aceptarla. El uso de la nueva tarjeta constituye aceptación de la misma. El Banco podrá, sin previa notificación a usted, transferir, vender, ceder o
traspasar su cuenta, este Acuerdo, o nuestros derechos y obligaciones sobre su cuenta o bajo este Acuerdo a cualquier entidad o persona. La
persona o entidad a la que se le venda, traspase, ceda o transfiera este Acuerdo o nuestros derechos y obligaciones sobre su cuenta, asumirá las
obligaciones de El Banco bajo este Acuerdo. De usted no desear aceptar la misma, deberá notificar al Banco dentro de los quince (15) días luego
de recibirla, sin haberla utilizado. Para notificar que no desea aceptar la Tarjeta, deberá comunicarse libre de costos al (855) 701-2265 o (787) 7512265. Servicio de Teletexto (TTY) para audio-impedidos: 787-282-4267. El seguro de protección de vida, muerte accidental y desmembramiento,
incapacidad o desempleo involuntario es opcional y no es una condición para extenderle el crédito. Este Acuerdo se interpretará bajo las Leyes del
Estado Libre Asociado de Puerto Rico.
NOTIFICACION SOBRE RECLAMACIONES DIRECTAS (RECLAMACIONES DE HISTORIAL DE CRÉDITO): De usted entender que nosotros
hemos sometido información incompleta o incorrecta sobre usted a una Agencia de Crédito escribanos al PO BOX 9146 Mail code 273, San Juan,
PR 00908-0146. Favor incluya información suficiente para identificar la cuenta u otra relación que está en disputa, incluyendo: su número de cuenta,
nombre, dirección, y número de teléfono, si aplica; información específica y suficiente de lo que está reclamando y una explicación sobre la razón
de su reclamación; y toda la documentación que sustente sus alegaciones o cualquier otra información necesaria requerida por la Institución. Esta
documentación puede incluir: copia de la parte o sección pertinente de su Informe de Crédito que sirve de base a su reclamación y/o que incluye la
información incorrecta; una querella de la Policía de Puerto Rico; la Declaración Jurada sobre hurto de identidad o fraude de ser esta su
reclamación; evidencia de pagos realizados y copia de sus estados de cuenta; entre otros documentos que usted desee presentar para sustentar su
reclamación.

FirstBank Card Services (rev 03/17)

